                                                    v~ SECV  ~
                                                   ~
                                                   \ 11/1111~!
                                                     "'J\rlsTV
                                        SOCIAL        SECURITY

MEMORANDUM                              Office of the Inspector General

      December        20,      2000                                                   ReferTo:
Tn'   William    A. Halter
      Deputy     Commissioner
        of Social   Security


      Inspector General


Subject:Redeterminations       for Supplemental Security Income Recipients Attaining Age 18
      (A-01-00-10013)


      Attached is a copy of our final report. Our objective was to determine              whether the
      Social Security Administration   is conducting eligibility redeterminations          in a timely
      manner using adult eligibility criteria for recipients attaining age 18.

      Please comment within 60 days from the date of this memorandum on corrective action
      taken or planned on each recommendation. If you wish to discuss the final report,
      please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
      General for Audit, at (410) 965-9700.


                                                           h              1/~

                                                               ~lIy




       Attachment
                                                   r       James    G. Huse,    Jr.
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




      REDETERMINATIONS FOR
     SUPPLEMENTAL SECURITY
        INCOME RECIPIENTS
         ATTAINING AGE 18

  December 2000   A-01-00-10013




   AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                   Executive Summary

OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA) is
conducting eligibility redeterminations in a timely manner using adult eligibility criteria
for recipients attaining age 18.

BACKGROUND

The Social Security Independence and Program Improvement Act of 1994
(Public Law 103-296) requires SSA to redetermine the Supplemental Security Income
(SSI) eligibility of at least one-third of all childhood SSI recipients who reach age 18
after April 1995 during the 1-year period following attainment of age 18.

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(Public Law 104-193) requires SSA to redetermine, within 1 year of the individual’s
18th birthday, the eligibility of any individual who was eligible for SSI childhood benefits
in the month before the individual attains age 18. This law, which was passed on
August 22, 1996, requires that disability redeterminations be performed using the adult
disability criteria for initial claims.

The Balanced Budget Act of 1997 (Public Law 105-33) extended the period of review to
more than 1 year after the individual’s 18th birthday. The effect of this change is to
eliminate the time limit on SSA to initiate an age-18 disability redetermination only
during the 1-year period following the individual’s 18th birthday. However, we
considered an age-18 redetermination to have been completed timely if it was initiated
                                    th
within 1 year of the individual’s 18 birthday (the time requirement specified in Public
Law 104-193).

The age-18 redetermination process begins with SSA’s Central Office releasing the
case to the Field Office (FO) through its automated system. The Central Office System
automatically selects the case if the individual attains age 18 in the fiscal year in which
the selection is made. When conducting an age-18 redetermination, the FO staff will
conduct the disability interview in the same manner as for an initial claim, except that
FO staff will not take a new application and will not develop medical information back to
the original disability onset date. After the FO completes its work, it will send the case
to the Disability Determination Services. Disability will be evaluated using the adult
standard.




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)                      i
RESULTS OF REVIEW

Overall, SSA is conducting eligibility redeterminations in a timely manner using adult
eligibility criteria for recipients attaining age 18. Our audit consisted of a detailed review
of 150 randomly selected cases from a population of 155,860 individuals who became
eligible for benefits as children and attained age 18 on or after August 23, 1996. Of
these 150 cases, SSA did not complete 5 required age-18 redeterminations. Projecting
the results of our sample to the population we estimate that at least 2,000 required
age-18 redeterminations have not been completed.

Our review of 150 cases found:

�   age-18 redeterminations were completed in 122 cases;

�   age-18 redeterminations were not completed in 5 cases; and

�   age-18 redeterminations were not required or not yet due in 23 cases.

CONCLUSION AND RECOMMENDATION
Overall SSA is conducting most age-18 redeterminations in a timely manner. SSA
could improve performance in this area to ensure that all reviews released to the FOs
are completed timely. We recommend that SSA periodically check to ensure that
follow-up alerts on age-18 cases are resolved.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. (See Appendix
B for SSA’s comments.)




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)                    ii
                                                                        Table of Contents

                                                                                                              Page


INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 5

   Age-18 Redeterminations Not Completed.......................................................... 5

   Age-18 Redeterminations Ongoing or Not Required .......................................... 6

CONCLUSION AND RECOMMENDATION ........................................................... 8

APPENDICES
Appendix A – Sampling Methodology and Results
Appendix B – Agency Comments
Appendix C – OIG Contacts and Staff Acknowledgments




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)
                                                                       Acronyms

DDS                Disability Determination Services


FO                 Field Office


FY                 Fiscal Year


OIG                Office of the Inspector General


P.L.               Public Law


SSA                Social Security Administration


SSI                Supplemental Security Income





Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)
                                                                       Introduction

OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) is
conducting eligibility redeterminations in a timely manner using adult eligibility criteria
for recipients attaining age 18.

BACKGROUND

Related Legislation

The Social Security Independence and Program Improvement Act of 1994
(Public Law 103-296) requires SSA to redetermine the Supplemental Security Income
(SSI) eligibility of at least one-third of all childhood SSI recipients who reach age 18
after April 1995 during the 1-year period following attainment of age 18.

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(Public Law 104-193) requires SSA to redetermine, within 1 year of the individual’s
18th birthday, the eligibility of any individual who was eligible for SSI childhood benefits
in the month before the individual attains age 18. This law, which was passed on
August 22, 1996, requires that disability redeterminations be performed using the adult
disability criteria for initial claims.

The Balanced Budget Act of 1997 (Public Law 105-33) extended the period of review to
more than 1 year after the individual’s 18th birthday. Specifically, Public Law (P.L.)
105-33 amended section 1614(a)(3)(H)(iii) of the Social Security Act to state: “…either
                                                           th
during the 1-year period beginning on the individual’s 18 birthday or, in lieu of a
continuing disability review, whenever the Commissioner determines that the
individual’s case is subject to a redetermination under this clause.” The effect of this
change is to eliminate the time limits on SSA to initiate an age-18 disability
                                                                             th
redetermination only during the 1-year period following the individual’s 18 birthday.
However, we considered an age-18 redetermination to have been conducted timely if it
                                                  th
was initiated within 1 year of the individual’s 18 birthday (the time requirement
specified in P.L. 104-193).

Age-18 Redetermination Process

The age-18 redetermination process begins with SSA’s Central Office releasing the
case to the Field Office (FO) through its automated system. When conducting an
age-18 redetermination, the FO staff will conduct the disability interview in the same
manner as for an initial claim, except that FO staff will not take a new application and
will not develop medical information back to the original disability onset date. The FO
will obtain completed disability reports and functional reports appropriate to initial



Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)                  1
disability determinations. After the FO completes its work, it will send the case to the
Disability Determination Services (DDS) with the Disability Redetermination Flag
stapled to the top of the file identifying the case as an age-18 redetermination. The
substantial gainful activity step of the sequential evaluation process and the medical
improvement review standard do not apply to these redeterminations. The disability
determination will be documented and input via Form SSA-832. On this form, an
age-18 redetermination will be distinguished by a code entered in the “Why Review
Was Made” field and “P.L. 104-193” entered in item 24. See figure 1 for a flow chart of
the age-18 redetermination process.



                  Figure 1: Age-18 Redetermination Process

                                   Central Office releases cases to the FOs
             Central               through its automated system. The system
             Office                automatically selects the case if the individual
                                   attains age 18 in the fiscal year in which the
                                   selection is made.



                                   The FO conducts the disability interview
             Field                 and obtains completed disability reports and
             Office                functional reports. The FO then sends the
                                   case to a DDS office.




                                   DDS staff will evaluate the disability
         Disability                using adult standards and document
       Determination               the decision.
         Service




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)                  2
Age-18 Redeterminations Completed

The following chart shows the age-18 redeterminations completed by SSA in Fiscal
Years (FY) 1995 through 1999.

       Table 1: Age-18 Redeterminations Completed in FYs 1995 Through 1999

     FY of DDS                Initial DDS               Number of      Number of
      Decision                 Decisions               Continuations   Cessations
       1995                             71                      64             7
       1996                        12,640                    8,158         4,482
       1997                        48,834                   22,431        26,403
       1998                        40,945                   21,453        19,492
       1999                        49,576                   27,413        22,163
       Total                      152,066                   79,519        72,547
Source: 2000 SSI Annual Report


SCOPE AND METHODOLOGY

To accomplish our objective, we:

   •	 Reviewed sections of the Social Security Act and SSA’s regulations, rules,
      policies and procedures pertaining to age-18 redeterminations.

   •	 Obtained a data file of 528,330 records containing all individuals in current or
      suspended pay status who became eligible for SSI benefits as a child and were
      18 years or older at the time of our extract. We determined that 155,860 of
      these individuals attained age 18 on or after August 23, 1996, selected a random
      sample of 150 cases, and projected our sample results to the population. (See
      Appendix A for details of our sampling methodology and results.)

   •	 Requested from SSA, copies of the medical files that supported the
      redetermination decisions for each of the sample cases.

   •	 Researched the National Disability Determination Services System files for those
      cases where we were unable to obtain medical files.

   •	 Contacted DDS and/or FO staff for cases where information in the medical files
      was not conclusive as to whether an age-18 redetermination had been
      completed. In those cases where FO staff confirmed that an age-18
      redetermination had not been completed, we requested that the FO conduct the
      review.

   •	 Determined for each sampled case whether: (1) an age-18 redetermination was
      completed; (2) the age-18 redetermination was initiated timely (before the


Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)           3
       individual’s 19th birthday); and (3) adult criteria was applied. If the age-18
       redetermination was required but not completed, we calculated the amount of
                                                                                th
       SSI benefits paid to the individual between the time of his or her 19 birthday
       and the date we reviewed the case.

We performed our review in Boston, Massachusetts between April 2000 and July 2000.
The entity audited was the Office of Disability under the Deputy Commissioner for
Disability and Income Security Programs. We conducted our audit in accordance with
generally accepted government auditing standards.




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)            4
                                                         Results of Review

Overall, SSA is conducting eligibility redeterminations in a timely manner using adult
eligibility criteria for recipients attaining age 18. Our audit consisted of a detailed review
of 150 randomly selected cases of individuals in current or suspended pay status who
became eligible for benefits as children and attained age 18 on or after August 23,
1996. Of these 150 cases, SSA did not ensure that required age-18 redeterminations
were completed in 5 cases. Projecting the results of our sample to the population we
estimate that at least 2,000 required age-18 redeterminations have not been
completed.


        Age-18 Redetermination Sample Results                          Our review of 150 cases
                                                                       found:

        Age-18                                   Age-18
                                                                       � age-18 reviews were
    Redeterminations                         Redeterminations          completed in 122 cases;
       Completed                              Not Completed
                                                                       � age-18 reviews were
           122                                       5                 not completed in
                                                                       5 cases; and
                                                  Not
                                                Applicable             � age-18 reviews were
                                                    23                 ongoing or were not
                                                                       required in 23 cases.




AGE-18 REDETERMINATIONS NOT COMPLETED

We identified 5 cases where required age-18 redeterminations have not been
completed.

�	 In one case an individual received a medical review and was continued under a
   childhood medical listing in November 1997, about 1 month prior to her 18th birthday.
   An age-18 redetermination was released to the FO. The FO believed that the above
   review was an age-18 redetermination and thus did not forward the case to the DDS
   to process an age-18 redetermination. The age-18 redetermination was not
   completed and the individual received $5,959 in benefits for 15 months after her
   19th birthday until the time we reviewed this case in June 2000.

�	 In a second case, the beneficiary’s initial eligibility was determined in July 1998,
                                th
   about 1 month prior to her 18 birthday. An age-18 redetermination was released


Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)                   5
    but the FO decided to wait until March 1999 to perform the redetermination. The
    age-18 redetermination was not completed and the individual received $2,594 in
                                      th
    benefits for 8 months after her 19 birthday until the time we reviewed this case in
    April 2000.

�	 In a third case, the individual did not keep a scheduled appointment related to her
   age-18 redetermination at the FO. The FO sent a letter stating that benefits would
   terminate if the individual did not come to the FO. This individual came into the FO
   to answer questions related to the age-18 redetermination. In error, the FO did not
   send this case to the DDS so that an age-18 redetermination could be performed.
   The age-18 redetermination was not completed and the individual received $1,024
   in benefits for 2 months after her 19th birthday until the time we reviewed this case in
   June 2000.

�	 In a fourth case, an age-18 redetermination was performed but not processed. The
   DDS began an age-18 redetermination and decided that the individual’s benefits
   should terminate due to failure to cooperate in May 1999. The case was then sent
   to the Disability Quality Branch which determined that the individual's benefits
   should have terminated in April 1999. The case was sent back to the FO. The FO
   was not aware that it should have processed the termination and, instead, sent the
   folder to the Wilkes-Barre Data Operations Center for storage. This individual was
   paid $6,060 in benefits during the period from June 1999 until we reviewed the case
   in May 2000.

�	 In a fifth case, an individual was in suspended pay status in the month before he
   attained age 18 in February 1997, therefore an age-18 redetermination was not
   released to the FO. He went back into current pay status the month after his
   18th birthday and has not undergone an age-18 redetermination. This individual was
   paid $14,524 in benefits for 27 months after his 19th birthday until we reviewed the
   case in July 2000.

We notified SSA FO staff of these 5 cases and the Agency is taking corrective action to
complete the age-18 reviews. Until we discussed these 5 cases with FO staff, SSA was
not taking action to complete the reviews. In 3 of the 5 cases, follow-up alerts had been
generated and issued to the DDS offices, but still the reviews had not been performed.

AGE-18 REDETERMINATIONS ONGOING OR NOT REQUIRED

Our review identified 23 cases that did not require age-18 redeterminations at the time
of our review. Specifically, we found that:

�   In 9 cases the individuals were evaluated under adult criteria.

�	 In 4 cases SSA was conducting age-18 redeterminations that were ongoing at the
   time of our review.




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)              6
�	 In 5 cases age-18 reviews were not completed as the individuals were not receiving
   payments at the time the age-18 redetermination was to be processed.

�   In 3 cases the individuals began receiving benefits under adult medical listings.

�	 In 2 cases age-18 redeterminations were initiated, but the recipients failed to
   cooperate with SSA. In these cases, benefits were suspended and the
   redeterminations were not completed.




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)                 7
                                                          Conclusion and
                                                         Recommendation
SSA is conducting most age-18 redeterminations in a timely manner. SSA could
improve performance in this area to ensure that all reviews released to the FOs are
completed timely. We recommend that SSA periodically check to ensure that follow-up
alerts on age-18 cases are resolved.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. Specifically,
SSA plans to issue a reminder to FO staff about the importance of processing age-18
redeterminations in a timely manner and the need to monitor this workload.
Additionally, the Deputy Commissioner for Disability and Income Security Programs
submitted a request to the Office of Systems on November 20, 2000 for a systems
enhancement to control and monitor this workload at the national level.




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)         8
                                               Appendices





Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)
                                                                         Appendix A

Sampling Methodology and Results
We obtained from the Social Security Administration a data extract from the
Supplemental Security Record of all individuals in current or suspended pay status who
became eligible for Supplemental Security Income benefits as children and were
18 years or older at the time of our extract. Our sample population did not include
cases where age-18 redeterminations were completed and benefits were terminated
prior to the date of our extract (January 2000). From this data file, we determined that
155,860 of these individuals attained age 18 on or after August 23, 1996. We used this
date because the Personal Responsibility and Work Opportunity Reconciliation Act of
1996 was enacted on August 22, 1996. We selected a random sample of 150 cases
from this population.




                     Sample Results and Attribute Projection
       Population size                                                 155,860
       Sample size                                                         150
       Sampled cases where age-18                                            5
       redeterminations were not completed
       Projection of age-18 redeterminations not                         5,195
       completed
       Projection lower limit                                            2,062
       Projection upper limit                                           10,722
       Note: All projections are at the 90-percent confidence level.


For those cases where we were unable to obtain medical files, we researched the
National Disability Determination Services System. We concluded that an age-18
redetermination was performed if the review was completed after the individual’s
  th
18 birthday and the “Why Review was Made” code equaled 29. We also checked
whether the Study List Code equaled 8 (Redetermination pursuant to Public Law
104-193) and the Continuing Disability Review Type Code equaled 4 (Age-18 Disability
Determination), which verifies that this was an age-18 redetermination.




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)
                                                                       Appendix B


Agency Comments





Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)
MEMO      RAND     UM




Date:        DfC        4 200C                                                   Refer To: SJl-3

To:        James    G. Ruse,      Jr.
           Inspector    General


From       William A. Halter 'Wt;t.qt
           Deputy Commissioner of Social Security

Subject    Office of the Inspector General (016) Draft Report, "Redeterminations for Supplemental
           Security Income Recipients Attaining Age 18" (Audit 22000023)-INFORMATION


           Our commentsto the subject report are attached. Staff questions should be directed to
           Neil Cunningham on extension 52290.

           Attachment:
           SSA ResDonse
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“REDETERMINATIONS FOR SUPPLEMENTAL SECURITY INCOME RECIPIENTS
ATTAINING AGE 18” (A-01-00-10013)


Thank you for the opportunity to review the subject draft report. We offer the following
comments.

Recommendation

SSA should periodically check to ensure that follow-up alerts on age-18 cases are resolved.

SSA Comment

We concur with this recommendation. As OIG reported, SSA is conducting most age-18
redeterminations timely. However, we also agree that SSA could improve performance in this
area. We have processes in place to follow up with field offices (FO) on this critical workload.
In December 2000, we will issue a reminder to the FOs about the importance of processing
age-18 redeterminations in a timely manner and the need to monitor this workload.

Although there are systems in place to control and monitor redetermination workloads at the FO
and Regional Office levels, the Deputy Commissioner for Disability and Income Security
Programs submitted a request to the Office of Systems on November 20, 2000 for a systems
enhancement to control and monitor this workload at the national level. Since planning, analysis
and development are necessary before systems enhancements can be implemented, an expected
completion date is not yet available.




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)                          B-2
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Roger J. Normand, Director, Disability Program Audit Division, (617) 565-1822

    Rona Rustigian, Deputy Director, (617) 565-1819


Acknowledgments
In addition to those named above:

    Walter Bayer, Auditor
    Katie Hallock, Auditor
    Kevin Joyce, Auditor
    David Mazzola, Auditor

For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-00-10013.




Redeterminations for SSI Recipients Attaining Age 18 (A-01-00-10013)
                           DISTRIBUTION SCHEDULE


                                                                            No. of
                                                                            Copies

Commissioner of Social Security
                                               1
Management Analysis and Audit Program Support Staff, OFAM
                    10
Inspector General
                                                             1
Assistant Inspector General for Investigations
                                1
Assistant Inspector General for Executive Operations
                          3
Assistant Inspector General for Audit
                                         1
Deputy Assistant Inspector General for Audit
                                  1
 Director, Systems Audit Division
                                             1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Issue Area Team Leaders                                                       25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                     1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                 1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                       1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                       1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                       1
Chairman, Committee on Appropriations, U.S. Senate                              1
Ranking Minority Member, Committee on Appropriations, U.S. Senate               1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                 1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                    1
Chairman, Committee on Finance                                                  1
Ranking Minority Member, Committee on Finance                                   1
Chairman, Subcommittee on Social Security and Family Policy                     1
Ranking Minority Member, Subcommittee on Social Security and Family Policy      1
Chairman, Senate Special Committee on Aging                                     1
Ranking Minority Member, Senate Special Committee on Aging                      1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                                1
President, National Council of Social Security Management Associations,
  Incorporated                                                                  1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                  1
Social Security Advisory Board                                                  1
AFGE General Committee                                                          9
President, Federal Managers Association                                         1
Regional Public Affairs Officer                                                 1


Total                                                                          97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG’s public
affairs, media, and interagency activities and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
